DATE:                           January 7, 2005

MEMORANDUM FOR:                 JONATHAN L. SNARE
                                Acting Assistant Secretary for
                                 Occupational Safety and Health



FROM:                           ELLIOT P. LEWIS
                                Assistant Inspector General
                                 for Audit

SUBJECT:                        Indiana Department of Labor OSHA Consultation Grants Audit
                                Report Number 05-05-004-10-105

The attached subject report is submitted for your resolution action. We request a response to the
report within 60 days.

It is your responsibility to transmit the report to grantee officials for resolution.

If you have any questions concerning this report, please contact Charles M. Allberry, Regional
Inspector General for Audit, in Chicago at (312) 353-2416.

Attachment
                                                                    Occupational Safety and Health
                                                                    Administration
                      Office of Inspector General—Office of Audit
Department of Labor



                                                                    Indiana Department
                                                                    of Labor
                                                                    OSHA Consultation Grants
                                                                    October 1, 1999 through September 30, 2002




                                                                                                Date Issued: January 7, 2005
                                                                                             Report Number: 05-05-004-10-105
Department of Labor
Office of Inspector General
                                                    JANUARY 2005
Office of Audit

                                                    INDIANA DEPARTMENT OF LABOR OSHA

BRIEFLY…
                                                    CONSULTATION GRANTS

                                                    WHAT OIG FOUND
Highlights of Report Number: 05-05-004-10-105, to
the Acting Assistant Secretary for Occupational     The OIG selected a statistical sample of travel
Safety and Health.                                  vouchers and a judgmental sample of all other
                                                    line items on the Financial Status Reports
WHY READ THE REPORT                                 submitted to OSHA. We found that:

The      Occupational    Safety    and    Health        1. Grant funds were not always expended
Administration (OSHA) provides grants to states            in accordance with 29 CFR 97.
for free consultation services to employers. This       2. Some grant costs were not allowable in
is authorized under Section 21(d) of the                   accordance with OMB Circular A-87.
Occupational Safety and Health Act. Primarily           3. Indiana did not comply with some
targeted for smaller businesses, this safety and           provisions of the grant agreements.
health consultation program is completely
separate from OSHA inspections. No citations        The overall cause for the problems we identified
are issued or penalties proposed. Because the       was a lack of adequate internal controls and
consultation is a voluntary activity, employers     management      oversight    to  ensure     that
must request it.       During the consultation,     procedures were followed.
employers learn about potential hazards at their
worksite. The employer learns not only what         WHAT OIG RECOMMENDED
needs to be improved, but what it is doing right.
The employer and consultant discuss problems,       We recommended that the Acting Assistant
possible solutions, and abatement periods to        Secretary for Occupational Safety and Health:
eliminate or control any serious hazards
identified through the walk-through.                    •       Recover $136,241 and
                                                        •       Direct IDOL to:
WHY OIG DID THE AUDIT                                       1) Ensure costs claimed on the
                                                            Financial Status Reports are adequately
OSHA awarded grants to the Indiana                          supported in the general ledger,
Department of Labor (IDOL) to operate its                   2) Allocate employee costs to the grant
consultation program.      During the period                using time reports, and
October 1, 1999 through September 30, 2002,                 3) Expend funds only for activities
IDOL received over $1.9 million in Federal funds            related to and/or listed in the grant
and the State of Indiana provided IDOL an                   agreements.
additional $220,555.
                                                    IDOL concurred with Finding 1 and generally
The objective of our audit was to determine         disagreed with, or did not respond to, Findings 2
whether these funds were expended in                and 3.
accordance with the requirements of 29 Code of
Federal Regulations (CFR) 97, Office of
Management and Budget (OMB) Circular A-87
Cost Principles, and specific grant provisions.

READ THE FULL REPORT

To view the report, including the scope,
methodology, and full agency response, go to:

http://www.oig.dol.gov/public/reports/oa/2005/05
-05-004-10-105.pdf
Indiana Department of Labor OSHA Consultation Grants



Table of Contents                                                          __________
                                                                                                      Page

EXECUTIVE SUMMARY .....................................................................................i

ASSISTANT INSPECTOR GENERAL’S REPORT .............................................1

FINDINGS AND RECOMMENDATIONS

        OBJECTIVE 1 and FINDING – Did Indiana expend funds in
        accordance with the requirements of 29 Code of Federal
        Regulations (CFR) 97? ............................................................................2

        Recommendations 1 and 2 ....................................................................5

        OBJECTIVE 2 and FINDING – Did Indiana expend funds in
        accordance with the requirements of Office of Management and
        Budget Circular A-87 Cost Principles? .................................................5

        Recommendations 3, 4, and 5 ...............................................................9

        OBJECTIVE 3 and FINDING – Did Indiana expend funds in
        accordance with specific grant provisions? ..................................... 11

        Recommendations 6 and 7 ................................................................. 14

APPENDICES:

        A. Background .................................................................................... 19

        B. Objective, Scope, Methodology, and Criteria ............................... 21

        C. Acronyms and Abbreviations ........................................................ 23

        D. Grantee’s Response To Draft Report ............................................ 24




U.S. Department of Labor—Office of Inspector General
Report Number: 05-05-004-10-105
Indiana Department of Labor OSHA Consultation Grants




                   THIS PAGE INTENTIONALLY LEFT BLANK




                                 U.S. Department of Labor—Office of Inspector General
                                                     Report Number: 05-05-004-10-105
Indiana Department of Labor OSHA Consultation Grants



Executive Summary                                      ____________
We conducted an audit of the 21(d) grants awarded to the Indiana Department of
Labor (IDOL) by the Occupational Safety and Health Administration (OSHA) to
operate its consultation program for the period of October 1, 1999 through
September 30, 2002. IDOL received over $1.9 million in Federal funds and the
State of Indiana provided IDOL an additional $220,555. IDOL reported grant
costs of approximately $2.07 million during this period.

The purpose of our audit was to determine whether funds were properly
expended. To determine this, we wanted to determine the answers to the
following questions:

   1. Did Indiana expend funds in accordance with the requirements of
      29 CFR 97?
   2. Did Indiana expend funds in accordance with the requirements of OMB
      Circular A-87 Cost Principles?
   3. Did Indiana expend funds in accordance with specific grant provisions?

Our audit resulted in questioned costs of $136,241 due to the following instances
of noncompliance:

       29 CFR 97
          • Double billings ($7,519)
          • Unsupported claims ($47,732)

       OMB Circular A-87
         • Improper costs ($1,079)
         • Unallowable costs ($2,717)
         • Misallocated costs ($8,350)

       Specific Grant Provisions
         • Unauthorized salaries ($41,090)
         • Unapproved equipment ($27,754)

We issued a draft report to IDOL on September 30, 2004. However, IDOL
officials declined our offers for an exit conference in person or by teleconference.
On December 3, 2004, IDOL provided a written response to the findings in our
draft report. IDOL concurred with our questioned costs in Finding 1 and
generally disagreed with, or did not respond to, Findings 2 and 3. As a result,
our recommendations remain unchanged.

We recommend that the Assistant Secretary for Occupational Safety and Health:




U.S. Department of Labor—Office of Inspector General                                   i
Report Number: 05-05-004-10-105
Indiana Department of Labor OSHA Consultation Grants


       •   Recover $136,241 and
       •   Direct IDOL to:
           1) Ensure costs claimed on the Financial Status Reports (FSRs) are
              adequately supported in the general ledger,
           2) Allocate employee costs to the grant using time reports, and
           3) Expend funds only for activities related to and/or listed in the grant
              agreements.




 ii                               U.S. Department of Labor—Office of Inspector General
                                                      Report Number: 05-05-004-10-105
Indiana Department of Labor OSHA Consultation Grants




U.S. Department of Labor                   Office of Inspector General
                                           Washington, DC. 20210




                ASSISTANT INSPECTOR GENERAL’S REPORT

Jonathan L. Snare
Acting Assistant Secretary for
 Occupational Safety and Health


We have audited the 21(d) grants awarded to the Indiana Department of Labor
(IDOL) by the Occupational Safety and Health Administration (OSHA) to operate
its consultation program for the period of October 1, 1999 through
September 30, 2002. See Appendix A for additional background information.

The purpose of our audit was to determine whether funds were properly
expended. To determine this, we wanted to determine the answers to the
following questions:

   1. Did Indiana expend funds in accordance with the requirements of
      29 CFR 97?
   2. Did Indiana expend funds in accordance with the requirements of OMB
      Circular A-87 Cost Principles?
   3. Did Indiana expend funds in accordance with specific grant provisions?

We conducted the audit in accordance with Government Auditing Standards for
performance audits. Our audit scope, methodology, and criteria are detailed in
Appendix B.




U.S. Department of Labor—Office of Inspector General                             1
Report Number: 05-05-004-10-105
Indiana Department of Labor OSHA Consultation Grants



Findings and Recommendations ____
Objective 1 and Finding: Did Indiana expend funds in
accordance with the requirements of 29 Code of Federal
Regulations (CFR) 97?
Not always. We found that grant funds were not always expended in accordance
with 29 CFR 97. Fringe Benefits, Equipment, Travel, and Other expenditures
were reported inaccurately on the Financial Status Reports (FSRs) submitted to
OSHA during Fiscal Years (FYs) 2000 – 2002. As a result, we are questioning
$55,251 in overstated expenditures for the following reasons:

          •   double billings ($7,519), and
          •   unsupported claims ($47,732).

We attribute the cause of these questioned costs to IDOL not following
procedures in its accounting manual and not adopting procedures to ensure that:
1) the transactions are only entered once in IDOL’s general ledger and
2) expenditures reported on the FSRs are supported by the general ledger.

IDOL management should review FSRs and accounting records to ensure that
expenditures are recorded accurately before submitting the FSRs to OSHA.

29 CFR 97, Uniform Administrative Requirements for Grants and Cooperative
Agreements, Subpart C (b)(1) states:

       Accurate, current, and complete disclosure of the financial results
       of financially assisted activities must be made in accordance with
       the financial reporting requirements of the grant or subgrant.

IDOL’s accounting manual lists, as part of its Basic Expenditure Payment
Procedures:

       Compare vendor claim to previous payment documents processed
       to determine payment is not pending.

Double Billings

Double billings appeared on the FY 2000 FSRs for the purchase of Computer
Equipment and OSHA General Industry books. This resulted in the FSRs being
overstated by $7,519.

IDOL purchased seven computers from NEC Computer Systems for $11,662 on
March 13, 2000. This transaction was recorded twice in IDOL’s general ledger
on March 13, 2000, and May 31, 2000. IDOL allocated $5,831 each to the

 2                               U.S. Department of Labor—Office of Inspector General
                                                     Report Number: 05-05-004-10-105
Indiana Department of Labor OSHA Consultation Grants


Consultation Program and the Enforcement Program on both dates. IDOL
normally records transactions in its general ledger on the cash basis of
accounting. In this instance, IDOL recorded the purchase of the seven
computers on the date of purchase, March 13, 2000, as well as the date when
the invoice was paid, May 31, 2000.

The FSRs submitted for the second and third quarters of FY 2000 indicate that
OSHA was billed $5,831 in each quarter for the computers. As a result of this
double billing, we are questioning $5,831 for equipment costs billed to OSHA on
the FSR submitted for the third quarter of FY 2000.

OSHA was also billed twice for the purchase of 150 OSHA General Industry
books from Commerce Clearing House on October 5, 1999 for $2,928. This
transaction was recorded twice in IDOL’s general ledger. IDOL allocated $1,688
of this transaction to the Consultation Program and $1,240 to another program
on both dates.

IDOL paid Commerce Clearing House $2,928 on November 30, 1999, and
December 16, 1999. IDOL discovered the error and collected $2,928 from
Commerce Clearing House on February 1, 2000. However, an adjustment was
not made in IDOL’s general ledger or on the FSR submitted for the first quarter of
FY 2000. As a result of this double billing, we are questioning $1,688 for Other
Costs reported on the FSR submitted to OSHA for the first quarter of FY 2000.

Unsupported Claims

Fringe Benefits, Equipment, and Travel expenditures reported on the FSRs for
Fiscal Years (FYs) 2000 – 2001 could not be supported by IDOL’s general
ledger. This resulted in the FSRs being overstated by $47,732.

IDOL prepares its FSR from the general ledger, which is on a cash basis of
accounting. However, in the fourth quarter, IDOL adds accruals to the FSR to
more accurately report expenditures for the fiscal year. These expenditures are
normally reversed from inclusion in the FSR submitted during the first quarter of
the following fiscal year. Therefore, the expenditures entered on the FSRs may
not reconcile with IDOL’s general ledger for the first and fourth quarters of each
fiscal year.

In addition, we found differences between the FSR and general ledger in other
quarters for selected line items. IDOL management did not satisfactorily explain
the reason for these differences.

The following charts provide an overview of the unsupported claims for Fringe
Benefits, Travel Costs, and Equipment.




U.S. Department of Labor—Office of Inspector General                                 3
Report Number: 05-05-004-10-105
Indiana Department of Labor OSHA Consultation Grants


Questioned Costs for FY 2000

                                     Fringe Benefits
                 Quarter               FSR           General Ledger      Difference
        1st Quarter
        10/01/99 – 12/31/99            $22,524              $18,824          $ 3,700
        2nd Quarter
        01/01/00 – 03/31/00                30,341            31,795           (1,454)
        3rd Quarter
        04/01/00 – 06/30/00                21,631            21,631                   0
        4th Quarter
        07/01/00 – 09/30/00                47,530            25,686           21,844
        Reversal of 4th Quarter
        Accruals in the                                                               0
        1st Quarter of FY 01
        Total Questioned Costs                                               $24,090

                                      Travel Costs
                Quarter                FSR           General Ledger      Difference
       1st Quarter
       10/01/99 – 12/31/99                 $12,805           $12,805          $        0
       2nd Quarter
       01/01/00 – 03/31/00                  13,121            13,121                   0

       3rd Quarter
       04/01/00 – 06/30/00                  12,817            12,817                   0
       4th Quarter
       07/01/00 – 09/30/00                  19,904            12,458              7,446
       Reversal of 4th Quarter
       Accruals in the                                                                 0
       1st Quarter of FY 01
       Total Questioned Costs                                                  $7,446

Questioned Costs for FY 2001

                                       Equipment
       Quarter                       FSR             General Ledger    Difference
       4th Quarter                           $894                $0                 $894
       7/1/00 – 9/30/00
       1st Quarter                           (669)             224                  (894)
       10/01/00 -- 12/31/00
       2nd Quarter
       01/01/01 – 03/31/01                   2,448            1,554                  894

       3rd Quarter
       04/01/01 – 06/30/01                 21,499              169                21,330
       4th Quarter
       07/01/01 – 09/30/01             104,853               47,684               57,169

       Reversal of Accruals in the
       1st Quarter of FY 02                                                   (63,197)
       Total Questioned Costs                                                 $16,196



 4                                   U.S. Department of Labor—Office of Inspector General
                                                         Report Number: 05-05-004-10-105
Indiana Department of Labor OSHA Consultation Grants


Overall Questioned Costs Summary

In summary, we questioned a total of $55,251, as follows:

               Reason          FY 2000         FY 2001          Total
           Double Billings        $ 7,519         $    0         $ 7,519
           Unsupported
                                    31,536             16,196      47,732
           Claims
           Total                   $39,055         $16,196        $55,251



Recommendations 1 and 2

We recommend that the Assistant Secretary for Occupational Safety and Health:

       1. recover the $55,251 in questioned costs, and
       2. direct IDOL to ensure that expenditures reported on the FSRs are
          accurate and adequately supported by IDOL’s general ledger.

Grantee’s Response

IDOL concurred. The findings amount to accounting errors and are primarily
attributable to the personnel and software issues. IDOL stated that the time
period at issue in this audit covers the grant start-up phase, the introduction of
new accounting software, and a period of rapid personnel changes at IDOL.
During a one-year period at the start-up of this grant, IDOL experienced three
agency controllers, two consultation program managers, and three changes in
one agency accountant position.

Auditor’s Conclusion

Although IDOL concurred with Finding 1, it did not provide a plan to repay the
questioned costs. In addition, IDOL did not document the corrective actions
taken or planned to ensure that expenditures reported on future FSRs would be
accurate and adequately supported by the general ledger. OSHA will consider
IDOL’s response as part of its audit resolution process.


Objective 2 and Finding: Did Indiana expend funds in
accordance with the requirements of Office of Management and
Budget (OMB) Circular A-87 Cost Principles?
Not always. We found that some grant costs were not allowable. Salary, Fringe
Benefits, Training, and Travel costs were improperly charged to the Indiana
OSHA Consultation Program during FYs 2000 – 2002. This resulted in
expenditures being overstated by $12,146 for the following reasons:

U.S. Department of Labor—Office of Inspector General                                 5
Report Number: 05-05-004-10-105
Indiana Department of Labor OSHA Consultation Grants


          •   Unallowable salary and fringe benefit costs ($1,079);
          •   Unallowable training costs ($2,717);
          •   Misallocated salaries and fringe benefit costs ($6,472); and
          •   Misallocated travel costs ($1,878)

We attribute the cause of these questioned costs to a lack of IDOL management
oversight. IDOL should ensure that when allocating expenditures to the
Consultation Program, the cost is reasonable, necessary, and allowable.

Better cost allocation procedures and a review of cost allocation calculations will
help ensure that costs are allocated properly to this program.

Unallowable Salary and Fringe Benefit Costs

IDOL charged salary and fringe benefits to the Consultation Program for an
employee prior to the employee’s official start date on Consultation Program
activities. This employee was listed on the labor distribution report for the payroll
period ending July 8, 2000, even though the employee did not begin working in
the Bureau of Safety Education and Training (BuSET) until July 10, 2000.

OMB Circular A-87, Attachment A, General Principles For Determining Allowable
Costs, Part E 2.a. states that typical direct costs chargeable to Federal awards
may include compensation of employees for the time devoted and identified
specifically to the performance of those awards.

This Circular provides that compensation to an employee is allowable only if the
employee’s time is devoted specifically to performance of the grant. However,
IDOL charged salary and fringe benefits to the grant for one employee prior to
the employee’s start date at BuSET on July 10, 2000. IDOL management could
not explain why this charge occurred. The salary and fringe benefits totaled
$2,067 for the pay period ending July 8, 2000. IDOL allocated 52.2 percent of
this cost to the Consultation program. As a result, we are questioning $1,079
($2,067 x 52.2%) in salaries and fringe benefits allocated for this employee.

Unallowable Training Costs

IDOL charged training costs that were not necessary to carry out the purpose of
the Consultation Program. IDOL paid for courses that employees attended, such
as Broadbanding, Research Theory, How to Manage Conflict and Anger, and
Homeland Security. IDOL also offered tuition assistance to employees and
allocated the costs of these courses to the Consultation Program as well.
Examples include: Civil Procedure I and II, Legal Writing I and II, Torts I and II,
Research Theory, and Ethical and Legal Considerations.

OMB Circular A-87, Attachment A, General Principles For Determining Allowable
Costs, Part C 1.a. states that to be allowable under Federal awards, costs must


 6                                U.S. Department of Labor—Office of Inspector General
                                                      Report Number: 05-05-004-10-105
Indiana Department of Labor OSHA Consultation Grants


be necessary and reasonable for proper and efficient performance and
administration of Federal awards.

We are questioning $2,717 as a result of IDOL allocating the cost of training
courses that were unrelated to the Consultation Program as shown below:

                                 Total Training    Allocated
                                Costs Allocated      Costs
                                   to Grant       Questioned
                   FY 2000                $ 225        $ 225
                   FY 2001                  4,487       2,243
                   FY 2002                    249         249
                   Total                  $4,961       $2,717

Misallocated Salaries and Fringe Benefits Costs

IDOL’s method of allocating salaries and fringe benefits to the Consultation
Program is not in compliance with OMB Circular A-87. Instead of using the
monthly time distribution reports prepared from actual hours on employees’ time
sheets, IDOL allocated salaries and fringe benefits by using a monthly
cumulative average percent of time from the distribution reports. This is not an
approved allocation method, as required by OMB Circular A-87, because the
averaging methodology does not take into consideration that the employees are
working at varying rates of pay. IDOL needs to claim costs based on the time
distribution reports or change to an approved substitute method. This approval
can be obtained from the DOL Division of Cost Determination.

OMB Circular A-87, Attachment A, General Principles For Determining Allowable
Costs, Part E 2.a. (Cited on page 5) requires that compensation for employees is
allowable only if their time is devoted specifically to performance of the grant.
Further, OMB Circular A-87, Attachment B, Selected Items Of Cost, Section 11,
Compensation for personnel services, states:

       h. Support of salaries and wages. These standards regarding time
       distribution are in addition to the standards for payroll
       documentation.

              (6) Substitute systems for allocating salaries and
              wages to Federal awards may be used in place of
              activity reports. These systems are subject to
              approval if required by the cognizant agency. Such
              systems may include, but are not limited to,
              random moment sampling, case counts, or other
              quantifiable measures of employment effort.



U.S. Department of Labor—Office of Inspector General                            7
Report Number: 05-05-004-10-105
Indiana Department of Labor OSHA Consultation Grants


Since IDOL did not use their time distribution reports, nor an approved substitute
method, to allocate salaries and fringe benefits to the Consultation Program, we
recalculated the correct costs, based on the time distribution reports. Therefore,
we question $6,472 in salaries and fringe benefits as detailed below:

                                                           Claimed     Costs
                                                            Costs      Based
                        Fringe                  Percent                            Questioned
           Salaries                   Total                              on
                       Benefits                 Claimed                              Costs
                                                                       Form
                                                                        2808
March       $39,509      $13,763      $53,272      50.71    $27,014   $24,650            $2,364
2001
January      59,376       21,439       80,815      55.50     44,852       40,744          4,108
2002
Total       $98,885      $35,202     $134,087               $71,866   $65,394            $6,472

Our audit scope also included three pay periods in FY 2000. However, claimed
costs, based on the average percentage method, were lower than salaries and
fringe benefits based on the actual time charged to the grant on the time
distribution report. Therefore, we did not question costs for this period.
Nevertheless, the method of allocating salaries and fringe benefits needs to be
changed to comply with the requirements of OMB Circular A-87.

Misallocated Travel Costs

IDOL allocated travel costs to the Consultation Program by using an allocation
percentage that did not coincide with the percentage of time the consultants and
administrative staff actually charged to the Consultation Program on their
monthly time reports for the days in travel status. We identified a maximum of 10
individuals each fiscal year whose time was misallocated. For example, we
identified four cases where IDOL allocated 100 percent of the consultant’s travel
costs to the Consultation Program, even though the consultants charged all of
their time on their monthly time sheets to the Enforcement Program for the period
of travel. Costs attributed to the Enforcement Program are not allowable under
the Consultation Program. OMB Circular A-87, Attachment A, Part E 2.d. states
that typical direct costs chargeable to Federal awards may include travel
expenses incurred specifically to carry out the award.

We are questioning $1,878 in misallocated travel costs for fiscal years 2001 and
2002 as shown below:

                                                                            Questioned
                      Total Travel    Claimed Costs     Allocated Costs
                                                                              Costs
          FY 2001         $33,529             $22,783           $21,575         $1,208
          FY2002           31,694              20,624            19,954            670
          Total           $65,223             $43,407           $41,529         $1,878




 8                                     U.S. Department of Labor—Office of Inspector General
                                                           Report Number: 05-05-004-10-105
Indiana Department of Labor OSHA Consultation Grants


Our audit scope also included FY 2000. For FY 2000, we found claimed costs
were lower than travel costs based on the actual time charged to the grant on the
time distribution report. Therefore, we did not question costs for this period.
However, the method of allocating travel costs also needs to be changed to comply
with the requirements of OMB Circular A-87.
Overall Questioned Costs Summary

We questioned a total of $12,146, including applicable Indirect Costs on Salaries
and Fringe Benefits, as follows:

       Reason          FY 2000         FY 2001         FY 2002        Total
   Improper Salary
   and Fringe               $1,079          $    0        $      0       $1,079
   Benefit Costs
   Unallowable
                              225            2,243             249        2,717
   Training Costs
   Misallocated
   Salaries and
                                 0           2,364            4,108       6,472
   Fringe Benefit
   Costs
   Misallocated
                                 0           1,208             670        1,878
   Travel Costs
   Total                    $1,304          $5,815         $5,027       $12,146



Recommendations 3, 4, and 5

We recommend that the Assistant Secretary for Occupational Safety and Health:

       3. recover the $12,146 in questioned costs;
       4. direct IDOL to ensure that:
                  a. expenditures allocated to the Consultation Program are
                     identified specifically to the performance of the program,
                  b. expenditures allocated to the Consultation Program are
                     necessary and reasonable to carry out the program,
                  c. expenditures are allocated in accordance with a method
                     identified in OMB Circular A-87, and
                  d. salary, fringe benefits, and travel costs are allocated based
                     on time distribution reports; and
       5. review the remaining salary, fringe benefits and travel costs not tested
          to ensure these costs have been allocated based on time distribution
          reports.

Grantee’s Response

IDOL disagreed with all of Finding 2. With regard to the questioned costs of
$1,079 for improper salary and fringe benefit costs, IDOL responded that the
decision to promote this internal hire had been made prior to the paperwork

U.S. Department of Labor—Office of Inspector General                              9
Report Number: 05-05-004-10-105
Indiana Department of Labor OSHA Consultation Grants


transfer of the employee. However, the employee began working on the grant in
order to transition into her new role. IDOL believes that work performed during
this time was grant related.

Regarding the questioned costs of $2,717 for training costs, IDOL responded that
in order to improve employee retention and recruitment, it implemented a tuition-
reimbursement fringe benefit and these questioned costs fall under that benefit
program. IDOL concedes that these costs would have been more accurately
recorded under the fringe benefit line item instead of training.

Regarding the questioned costs of $6,472 for misallocated salaries and fringe
benefit costs, IDOL believes this finding contradicts OSHA’s December 2000
onsite review of the 21(d) program (Attachment A to the response) with regard to
the IDOL’s compliance with OMB Circular A-87. OSHA’s review concluded
“Personnel who work less than 100% on the grant are required to maintain an
employee time and attendance report to keep track of the actual hours worked.
Our reviews of these reports for several pay periods disclosed that only the
actual hours worked were charged to the grant program.” IDOL does not believe
that it should suffer any consequence for having complied with procedures
previously approved by DOL absent any prior notification that DOL had changed
its perspective with regard to those procedures.

Auditor’s Conclusion

With regard to the $1,079 questioned for unallowable salary and fringe benefits,
even though IDOL claims that the employee worked on grant related activities,
work on these activities occurred before the employee’s official start date in
Consultation Program per the authorized paperwork. This is not allowable per
OMB Circular A-87.

Regarding $2,717 questioned for unallowable training costs, IDOL has not
demonstrated the benefits to the Consultation Program when employees attend
training courses unrelated to the purpose of the program. OMB Circular A-87
requires that such costs be necessary and reasonable for the performance of the
Program.

Our audit fieldwork showed that IDOL employees maintain monthly time and
attendance reports to keep track of the actual hours worked in the 21(d) program.
However, at the end of the month, IDOL allocated salaries and fringe benefits by
using a monthly cumulative average percentage of time from the distribution
reports. This distorts the total salaries charged to the program because not all
employees receive the same hourly rate of pay. This is not an approved
allocation method, as required by OMB Circular A-87.




10                               U.S. Department of Labor—Office of Inspector General
                                                     Report Number: 05-05-004-10-105
Indiana Department of Labor OSHA Consultation Grants


IDOL did not specifically address the $1,878 for misallocated travel costs.
However, IDOL used the same allocation method as for salaries and fringe
benefits, which is not an approved method in accordance with OMB
Circular A-87.

IDOL’s response did not address changes to its allocation methodology. OSHA
will consider IDOL’s response as part of its audit resolution process.


Objective 3 and Finding: Did Indiana expend funds in
accordance with specific grant provisions?
Not always. IDOL did not comply with some provisions in the consultation grant
agreements when expending funds. Grant funds were used to pay for the
expenditures of unauthorized employees and automobile purchases. As a result,
we are questioning $68,844 for the following reasons:

          •   employees not listed in the grant ($41,090), and
          •   equipment not authorized in the grant ($27,754).

IDOL management should ensure that grant funds are expended only for
personnel and equipment items authorized in the grant agreements. Otherwise,
OSHA’s approval should be obtained and documented prior to expending funds
for items not listed in the original agreements.

Each fiscal year, IDOL creates and submits a consultation grant agreement to
OSHA for approval. Once approved, IDOL must abide by the provisions in the
agreement. Listed in the grant agreement under the “Supportive Cost Breakout
Listing” are the number of positions, and the names of employees authorized to
charge expenditures to the grant. Included also in the grant agreement is an
“Approved Consultation Equipment Procurement Listing.” The approved
equipment procurement listing includes the consultant technical equipment
having a useful life of more than one year and a unit acquisition cost of $5,000 or
more.

Further, OMB Circular A-87, Attachment A, Section C, Basic Guidelines, states:

       1. Factors affecting allowability of costs. To be allowable under
       Federal awards, costs must meet the following general criteria:

              d. Conform to any limitations or exclusions set forth in these
              principles, Federal laws, terms and conditions of the Federal
              award, or other governing regulations as to types or amounts
              of cost items.




U.S. Department of Labor—Office of Inspector General                             11
Report Number: 05-05-004-10-105
Indiana Department of Labor OSHA Consultation Grants


Employees Not Listed in the Grant

During FYs 2000 through 2002, IDOL charged expenses related to six
unauthorized employees, totaling $41,090. These expenses were charged to the
following categories: Salary, Fringe Benefits, Training, Travel, Contractual, and
Other Costs. Listed below is the questioned cost breakout for each fiscal year.

Questioned Costs for FY 2000

Expenditures totaling $34,303 are questioned for three employees not listed on
the Supportive Cost Breakout Listing in the FY 2000 grant agreement. The
Supportive Cost Breakout Listing identifies employees and positions that were
authorized by OSHA to charge time to the 21(d) grant. IDOL was authorized
12 positions, including 11 named staff and 1 vacant position (which was filled
during the year). IDOL charged expenditures for three additional employees not
detailed in the Listing.

The Listing only authorizes salary and fringe benefits. However, the grant
agreement provides funds for travel, training, contractual costs, and other costs
associated with the authorized employees. We are questioning salaries, fringe
benefits, as well as other related costs:

      ID     Salary     Fringe    Training    Travel      Contractual   Other    Total
      No.              Benefits                                         Costs
      13     $ 5,985     $2,334       $695    $ 3,806           $  0      $196   $12,982
      16       5,356      2,217          0      3,568            185       162    11,522
       6       4,414      1,920          0      3,369              0        96     9,799
     Total   $15,755     $6,471       $695    $10,743           $185      $454   $34,303

Questioned Costs for FY 2001

Expenditures totaling $1,143 are questioned for costs incurred by two employees
that were not included on the Listing in the FY 2001 grant agreement. These
employees did not work on any grant related activities during FY 2001. IDOL did
not charge these employees’ salaries and fringe benefits to the grant. However,
IDOL charged related costs, which we are questioning, as follows:

                         ID No.   Training     Travel         Total
                            8          $42       $    0           $42
                           18             0       1,101         1,101
                          Total        $42       $1,101        $1,143

Questioned Costs for FY 2002

Expenditures totaling $5,644 are questioned for one employee that was not
included on the Listing in the FY 2002 grant agreement. IDOL allocated salaries
and fringe benefits for an IDOL employee on occasions when he performed
computer maintenance and software upgrades for BuSET, as part of the

12                                   U.S. Department of Labor—Office of Inspector General
                                                         Report Number: 05-05-004-10-105
Indiana Department of Labor OSHA Consultation Grants


consultation grant. This was not authorized in the grant agreement. We are,
therefore, questioning these related costs:


                      ID No.     Salary         Fringe        Total
                                               Benefits
                       17            $3,966       $1,678        $5,644
                      Total          $3,966       $1,678        $5,644

Equipment Not Authorized in the Grant

The grant agreement includes a procurement listing for each fiscal year, which is
a list of equipment to be purchased with grant funds during the term of the grant
agreement. As defined by the grant agreement:

       Equipment shall include the costs of consultant technical equipment
       having a useful life of more than one year and a unit acquisition
       cost of $5,000 or more, except as defined in Special Provisions
       VI.B. All equipment so defined shall be listed in the Approved
       Consultation Equipment Procurement Listing.

During FY 2002, IDOL purchased two automobiles. As part of the transaction,
compact disc (CD) players were installed prior to the sale. The purchase of the
automobiles and CD players totaled $27,754. Because the automobiles
purchased had a useful life of more than one year and a unit acquisition cost of
more than $5,000, the purchases required advance approval. We are
questioning this cost because there was no advance approval.

                                                           Quantity
          Equipment                       Unit Price                      Total Cost
                                                           Purchased
          Automobile - Dodge Stratus
                                              $13,632                 2      $27,264
          (2002)
          Installation of CD Player                 245               2          490
          Total                                                              $27,754


Overall Questioned Costs Summary

We questioned a total cost of $68,844 due to violations of specific grant
provisions as follows:

       Reason          FY 2000            FY 2001            FY 2002             Total
   Employees Not
   Listed in the           $34,303             $1,143            $5,644                $41,090
   Grant
   Equipment Not
   Authorized in                 0                     0         27,754                 27,754
   the Grant
   Total                   $34,303             $1,143           $33,398                $68,844


U.S. Department of Labor—Office of Inspector General                                             13
Report Number: 05-05-004-10-105
Indiana Department of Labor OSHA Consultation Grants


Recommendations 6 and 7

We recommend that the Assistant Secretary for Occupational Safety and Health:

       6. recover questioned costs of $68,844, and
       7. direct IDOL to:
          a. apply expenditures to the grant only for those activities listed in the
              grant agreement, and
          b. receive and document OSHA’s approval of expenditures prior to
              expending funds on items not listed in the grant agreement.

Grantee’s Response

Again, IDOL stated that the largest portion of these questioned expenditures
($34,303 in FY 2000) were previously reviewed and approved by OSHA during
its December 2000 onsite review. IDOL further believes that even though these
expenditures were not itemized in the grant agreement, they were appropriate
and performed on grant activities. Since IDOL did not overspend the grant and
these activities were otherwise eligible for grant coverage, it believes the costs
are allowable.

With regard to $1,143 questioned for training and travel for employees not listed
in the FY 2001 grant agreement, IDOL concedes that the questioned training
cost of $42.50 was a simple bookkeeping error. In regard to the questioned
travel costs of $1,101, IDOL stated that an intern conducted this travel and
performed activities covered by the grant. Because these activities were covered
by the grant, IDOL believes the costs are allowable.

IDOL stated that the questioned employee costs of $5,644 for FY 2002 were
incurred for information technology services specifically related to this grant. The
grant agreement permitted contract expenditures of $10,500 for such purposes
during this fiscal year. Since, the in-house employee expenditures were in lieu of
contract services, IDOL believes these costs are allowable.

With regard to the questioned equipment costs of $27,754 in FY 2002, IDOL
concedes that such equipment was not specifically listed in the grant agreement.
These expenditures were made in an effort to reduce travel costs associated with
the consultation program by replacing mileage reimbursement for use of personal
vehicles by staff. The purchase of these vehicles was grant related.

Auditor’s Conclusion

IDOL management should ensure that grant funds are expended only for
personnel authorized in the grant agreements. Otherwise, OSHA’s approval
should be obtained and documented prior to expending funds for personnel not
listed in the original agreements.


14                                U.S. Department of Labor—Office of Inspector General
                                                      Report Number: 05-05-004-10-105
Indiana Department of Labor OSHA Consultation Grants


Further, the related training and travel for such employees not listed in the grant
is also unallowable.

IDOL management should ensure that grant funds are expended only for
equipment items authorized in the grant agreement. Otherwise, OSHA’s
approval should be obtained and documented prior to expending funds for
equipment items not listed in the original agreement.

IDOL’s response did not address changes to its procedures for applying
expenditures to the grant to ensure that only those activities listed in the grant
agreement are claimed as reimbursable costs. OSHA will consider IDOL’s
response as part of its audit resolution process.




for Elliot P. Lewis
November 5, 2003




U.S. Department of Labor—Office of Inspector General                                 15
Report Number: 05-05-004-10-105
Indiana Department of Labor OSHA Consultation Grants




                   THIS PAGE INTENTIONALLY LEFT BLANK




16                               U.S. Department of Labor—Office of Inspector General
                                                     Report Number: 05-05-004-10-105
Indiana Department of Labor OSHA Consultation Grants




Appendices




U.S. Department of Labor—Office of Inspector General   17
Report Number: 05-05-004-10-105
Indiana Department of Labor OSHA Consultation Grants




                   THIS PAGE INTENTIONALLY LEFT BLANK




18                               U.S. Department of Labor—Office of Inspector General
                                                     Report Number: 05-05-004-10-105
Indiana Department of Labor OSHA Consultation Grants


                                                                     Appendix A


Background
Consultation Program
OSHA provides grants to states to provide free consultative services to
employers. This is funded under Section 21(d) of the Occupational Safety and
Health Act, which was added under the Occupational Safety and Health
Administration Compliance Assistance Authorization Act of 1998. Primarily
targeted for smaller businesses, this safety and health consultation program is
completely separate from OSHA inspections. During the consultation, employers
learn about potential hazards at their worksite. No citations are issued or
penalties proposed. The consultation is confidential; employer names and any
information provided about the workplace, plus any unsafe or unhealthful working
conditions that the consultant uncovers, will not be reported routinely to the
OSHA inspection staff. Afterward, employers can qualify for a 1-year exemption
from routine OSHA inspections.

Because consultation is a voluntary activity, employers must request it. Once
contacted, the consultant discusses the employer’s specific needs and sets up a
visit date based on the priority assigned to the request, the employer’s work
schedule, and the time needed for the consultant to adequately serve the
employer. OSHA encourages the employers to undergo a complete review of
their company’s safety and health situation. However, if the employer wishes,
they may limit the visit to one or more specific problems.

Upon arrival, the consultant studies the employer’s entire workplace, or the
specific conditions the employer designates, and also discusses the applicable
OSHA standards. Consultants also point out other safety or health hazards that
might not be cited under OSHA standards, but nevertheless may pose safety or
health risks to employees. The consultant may suggest and even provide other
measures such as self-inspection and safety and health training the employer
and employees can use to prevent future hazardous situations.

The consultant reviews any detailed findings with the employer in a closing
conference. The employer learns not only what needs to be improved, but what
it is doing right. At that time, the employer and consultant can discuss problems,
possible solutions, and abatement periods to eliminate or control any serious
hazards identified through the walk-through. If the consultant finds an imminent
danger situation during the walk-through, the employer must take immediate
action to protect all employees. In other situations that would be judged a
“serious violation” under OSHA criteria, the employer and consultant are required
to develop and agree to a reasonable plan and schedule to eliminate or control



U.S. Department of Labor—Office of Inspector General                            19
Report Number: 05-05-004-10-105
Indiana Department of Labor OSHA Consultation Grants


that hazard. The consultants offer general approaches and options to the
employer. They may also suggest other sources for technical help.

Indiana’s Consultation Program

In Indiana, the consultation program grants were awarded to the IDOL’s BuSET.
OSHA awarded BuSET $523,000 in FY 2000, $731,000 in FY 2001, and
$731,000 in FY 2002, for a total of $1,985,000. The state provided IDOL an
additional $220,555.

Indiana is one of 48 states, the District of Columbia, and several U.S. territories
that operate OSHA onsite consultation programs. Indiana was accepted into the
Federal OSHA Consultation Program in July 1999. Acceptance into the
consultation program is noncompetitive.

Indiana operates its own safety and health program for development and
enforcement of standards for which federal standards have been promulgated, in
accordance with Section 18 of the Occupational Safety and Health (OSH) Act.
Indiana is known as a “State Plan State.” As such, Indiana is eligible to operate
a consultation program, provided it meets the requirements of Section 21 (d) of
the OSH Act.




20                               U.S. Department of Labor—Office of Inspector General
                                                     Report Number: 05-05-004-10-105
Indiana Department of Labor OSHA Consultation Grants


                                                                    Appendix B


Objective, Scope, Methodology,
and Criteria
Audit Objective
The purpose of our audit was to determine whether funds were properly
expended. To determine this, we wanted to determine the answers to the
following questions:

   1. Did Indiana expend funds in accordance with the requirements of
      29 CFR 97?
   2. Did Indiana expend funds in accordance with the requirements of OMB
      Circular A-87 Cost Principles?
   3. Did Indiana expend funds in accordance with specific grant provisions?

Scope

We audited the OSHA 21(d) consultation grants awarded to the IDOL’s BuSET.
Our audit scope covered the period October 1, 1999 through
September 30, 2002. IDOL received over $1.9 million dollars from OSHA to
operate its consultation program for the above period. We tested expenditures
claimed totaling $613,846.

Methodology

To meet our objective, we reviewed management controls over relevant
transaction cycles. Our work on established management controls included
obtaining and reviewing policies and procedures manuals, interviewing key
personnel, and reviewing selected transactions to observe the controls in place.
Our testing related to management controls focused only on the controls related
to our audit objectives of reviewing the reported cost and performance data and
was not intended to form an opinion on the adequacy of management controls
overall, and we do not render such an opinion. Weaknesses noted in our testing
are discussed in the Findings and Recommendations section of this report.

In order to determine compliance with the above-mentioned laws and
regulations, we performed detailed tests of transactions and tested a sample of
travel vouchers submitted for reimbursement of expenses while conducting
consultation visits during our audit period. Our detailed tests of transactions
included both analytical review and substantive tests of accounts. Our testing
related to compliance with laws and regulations focused only on the laws and
regulations relevant to our audit objectives of reviewing the reported cost and

U.S. Department of Labor—Office of Inspector General                              21
Report Number: 05-05-004-10-105
Indiana Department of Labor OSHA Consultation Grants


performance data and was not intended to form an opinion on the compliance
with laws and regulations as a whole, and we do not render such an opinion.
Instances of non-compliance are discussed in the Findings and
Recommendations section of this report.

We selected a judgmental sample of transactions from line items on the FSR,
excluding travel. For our audit period, we reviewed 428 transactions, with a total
dollar value of $541,054. We did not intend our testing to be a representative
sample and did not project to the entire universe of financial transactions. In
addition, our selective testing was not designed to express an opinion on IDOL’s
FSR.

We separately selected a statistical sample of 217 travel vouchers, from a
universe of 447 vouchers, with a total dollar value of $72,792, to determine if trips
taken were appropriate and the mileage reimbursement claims were reasonable.
Our confidence level was 95 percent with a ± 5 percent sampling precision.

Our audit was performed in accordance with Government Auditing Standards
issued by the Comptroller General of the United States. Our fieldwork was
conducted at IDOL offices in Indianapolis, Indiana between December 2002 and
June 2003.

Criteria
The following criteria were used in accomplishing our audit:

       Occupational Safety and Health Act 1970

       29 CFR Part 97 - Uniform Administrative Requirements for Grants and
       Cooperative Agreements to State and Local Governments,
       September 26, 1997

       29 CFR Part 1908 - Consultation Agreements: Changes to Consultation
       Procedures, October 26, 2000

       OMB Circular A-87 - Cost Principles for State, Local, and Indian Tribal
       Governments, August 29, 1997

       OSHA’s Training and Education Directives (TED) 3.6 – Consultation
       Policies and Procedures Manual, August 6, 2001

       State of Indiana’s Accounting Manual

       State of Indiana’s Financial Management Circular 97-1.1 effective
       July 1, 1997



22                                U.S. Department of Labor—Office of Inspector General
                                                      Report Number: 05-05-004-10-105
Indiana Department of Labor OSHA Consultation Grants


                                                                     Appendix C


Acronyms and Abbreviations
BuSET                Bureau of Safety Education and Training
CD                   Compact Disc
CFR                  Code of Federal Regulations
DOL                  U.S. Department of Labor
FSR                  Financial Status Report
FY                   Fiscal Year
IDOL                 Indiana Department of Labor
OIG                  Office of Inspector General
OMB                  Office of Management and Budget
OSH Act              Occupational Safety and Health Act of 1970
OSHA                 Occupational Safety and Health Administration
TED                  Training and Education Directives




U.S. Department of Labor—Office of Inspector General                         23
Report Number: 05-05-004-10-105
Indiana Department of Labor OSHA Consultation Grants


                                                                       Appendix D


Grantee’s Response to Draft Report
In addition to the letter shown on the following pages, IDOL also provided a copy
of an Onsite Monitoring Review dated February 14, 2001, as Attachment A to its
response. This review was conducted December 18-22, 2000 by a Federal
OSHA representative to assess the financial and administrative aspects of the
21(d) Onsite Consultation and 23 (g) State Plan Grants awarded to IDOL.




24                               U.S. Department of Labor—Office of Inspector General
                                                     Report Number: 05-05-004-10-105
Indiana Department of Labor OSHA Consultation Grants




U.S. Department of Labor—Office of Inspector General   25
Report Number: 05-05-004-10-105
Indiana Department of Labor OSHA Consultation Grants




26                               U.S. Department of Labor—Office of Inspector General
                                                     Report Number: 05-05-004-10-105
Indiana Department of Labor OSHA Consultation Grants




U.S. Department of Labor—Office of Inspector General   27
Report Number: 05-05-004-10-105
